No. ______________
IN THE
SUPREME COURT OF THE UNITED STATES
JEVANTE MARCUS RICHMOND, and
ARTHUR GENE EVANS, JR.,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioners, JEVANTE MARCUS RICHMOND and ARTHUR GENE EVANS,
JR., pursuant to Rule 39, Supreme Court Rules and 18 U. S. C. 3006A(d)(7), request
leave to file the attached Petition for Writ of Certiorari to the United States Court
of Appeals for the Fourth Circuit without prepayment of costs and proceed in forma
pauperis.
Petitioners were represented by counsel under the Criminal Justice Act in
the district court and on appeal to the United States Court of Appeals for the
Fourth Circuit. Leave to proceed in forma pauperis under the Criminal Justice Act
before the district court and Court of Appeals was sought and granted.

Because appellate counsel were appointed pursuant to the Criminal Justice
Act of 1964, 18 U.S.C. ยง 3006A, no affidavit or declaration of the petitioners is
attached. See S. Ct. R. 39.1.
Respectfully submitted,

s/ Jeremy A. Thompson
Jeremy A. Thompson
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
1901 Assembly Street, Suite 200
Columbia, South Carolina 29201
Telephone No.: 803.765.5077
Email: Jeremy_Thompson@fd.org
John Earl Duncan, Esquire
Law Office of John E. Duncan
137 East Butler Street, Suite 3
Lexington, South Carolina 29072
Telephone No.: 803.951.2388
Email: johnduncanlaw@gmail.com
COUNSEL FOR PETITIONERS
July 23, 2021

2

